<html>
<title> - BORDER SECURITY OVERSIGHT, PART III: BORDER CROSSING CARDS AND B1/B2 VISAS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 BORDER SECURITY OVERSIGHT, PART III: BORDER CROSSING CARDS AND B1/B2 
                                 VISAS 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2013

                               __________

                           Serial No. 113-77

                               __________

Printed for the use of the Committee on Oversight and Government Reform

         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

86-722 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
DOUG COLLINS, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
MARK MEADOWS, North Carolina         Vacancy
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                   Subcommittee on National Security

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts 
JOHN J. DUNCAN, JR., Tennessee           Ranking Minority Member
JUSTIN AMASH, Michigan               CAROLYN B. MALONEY, New York
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
TREY GOWDY, South Carolina           JACKIE SPEIER, California
CYNTHIA M. LUMMIS, Wyoming           PETER WELCH, Vermont
ROB WOODALL, Georgia                 MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 14, 2013................................     1

                               WITNESSES

Mr. John Wagner, Acting Deputy Assistant Commissioner, Office of 
  Field Operations, U.S. Customs and Border Protection
    Oral Statement...............................................     7
    Written Statement............................................    10
Mr. John P. Woods, Assistant Director, National Security 
  Investigations Division, Homeland Security Investigations, U.S. 
  Immigration and Customs Enforcement
    Oral Statement...............................................    20
    Written Statement............................................    22
Mr. Edward J. Ramotowski, Deputy Assistant Secretary for Visa 
  Services, Bureau of Consular Affairs, U.S. Department of State
    Oral Statement...............................................    28
    Written Statement............................................    30
Mr. Juan Osuna, Director, Executive Office of Immigration Review, 
  U.S. Department of Justice
    Oral Statement...............................................    53
    Written Statement............................................    55

                                APPENDIX

The Hon. Jason Chaffetz, a Member of Congress from the State of 
  Utah, Opening Statement........................................    88
SFL Opening Statement............................................    92


 BORDER SECURITY OVERSIGHT, PART III: BORDER CROSSING CARDS AND B1/B2 
                                 VISAS

                              ----------                              


                      Thursday, November 14, 2013,

                  House of Representatives,
                  Subcommittee on National Security
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the subcommittee] presiding.
    Present: Representatives Chaffetz, Gosar, Bentivolio, 
Tierney, Speier, Lujan Grisham, and Welch.
    Also Present: Representatives Lynch and Kelly.
    Staff Present: Brien A. Beattle, Majority Professional 
Staff Member; Molly Boyl, Majority Parliamentarian; Lawrence J. 
Brady, Majority Staff Director; Daniel Bucheli, Majority 
Assistant Clerk; John Cuaderes, Majority Deputy Staff Director; 
Jennifer Hemingway, Majority Deputy Policy Director; Mitchell 
S. Kominsky, Majority Counsel; Laura L. Rush, Majority Deputy 
Chief Clerk; Sang H. Yi, Majority Professional Staff Member; 
Jaron Bourke, Minority Director of Administration; Devon Hill, 
Minority Research Assistant; Peter Kenny, Minority Counsel; and 
Julia Krieger, Minority New Media Press Secretary.
    Mr. Chaffetz. The committee will come to order.
    I would like to begin this hearing by stating the Oversight 
Committee mission statement: We exist to secure two fundamental 
principles: first, Americans have a right to know that the 
money Washington takes from them is well spent and, second, 
Americans deserve an efficient, effective Government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights. Our solemn responsibility 
is to hold Government accountable to taxpayers, because 
taxpayers have a right to know what they get from their 
Government. We will work tirelessly in partnership with citizen 
watchdogs groups to deliver the facts to the American people 
and bring genuine reform to the Federal bureaucracy.
    That is the mission statement of the Oversight and 
Government Reform Committee.
    I want to welcome everybody to today's hearing, which is 
entitled Border Security Oversight, which is our third in a 
series, Border Crossing Cards and B1/B2 Visas.
    I would also like to welcome Ranking Member Tierney, other 
members of this subcommittee, and those in the audience who are 
joining us today and those able to watch the proceedings via 
television.
    Today's proceedings are the third in a series of hearings 
designed to assess U.S. border security efforts, as well as 
challenges in obtaining operational control, particularly of 
the Southwest border.
    On June 27th of this year, the subcommittee received 
testimony from officials at Customs and Border Protection, 
Immigration and Customs Enforcement, and the Government 
Accountability Office. During that hearing, the subcommittee 
learned about the variety of emerging threats to U.S. border 
security, ranging from increasing number of what are called 
OTMs, also known as Other than Mexicans, coming across the 
Southwest border. When I visited the Eloy Detention Facility in 
Arizona, OTMs accounted for more than 900 inmates out of nearly 
1600.
    New challenges at our border include drug cartels, use of 
ultra light aircrafts and tunnels. We heard about potential 
fraud in the asylum application process, while at the same time 
we are seeing a 434 percent increase in the last five years in 
the Credible Fear category in the request for asylum and flaws 
in the Government's issuance and administration of the B1/B2 
and the entry/exit program, which, despite the law, we still 
don't have.
    Back in the 1990s, there was a law mandating that we 
implement an entry/exit program. We still don't have an entry/
exit program. In fact, yesterday the Judiciary Committee also 
held a hearing about the lack of an entry/exit program.
    In light of testimony this subcommittee has received, it is 
imperative to examine the potential flaws in our immigration 
system, especially the process and procedures relating to the 
issuance and enforcement of border crossing cards and the B1/B2 
visas.
    B1 and B2 cards are non-immigrant visas for persons who 
want to enter the United States temporarily for business, a B1; 
tourism, pleasure, or visiting, a B2; or combination of both 
purposes, often referred to as a B1/B2.
    According to the Department of State, more than 5.3 million 
B1/B2 non-immigrant visas were issued in the fiscal year 2012. 
That is a one-year number. In 2008, the number of B1/B2 visas 
issued by the Department of State has skyrocketed. In 2008, the 
State Department issued 3.5 million B1/B2 visas, representing 
an approximate 55 percent increase in the issuance of these 
visas from 2008 to 2012. Likewise, the State Department issued 
1.3 million border crossing cards in fiscal year 2013, 
continuing to issue millions of border crossing cards over the 
last three years. By my best calculation, and I would 
appreciate the panel's clarification here, we have issued--when 
you get a border crossing card, it is good for 10 years. We 
have nearly 9 million of these cards that are out there. That 
is a lot of cards. And without an entry/exit system, and 
questions about how you verify and then how you enforce this 
are the questions in part that we have to deal with today.
    Now, we were issuing a lot of cards during the Bush 
Administration, but as best we can tell, we are now issuing 
approximately more than 300,000 cards per year under the Obama 
Administration. I would like to understand why that is. Why 
this sudden increase, dramatic increase, by 300-plus thousand 
more of these cards going out the door each year. And when you 
get a card, it lasts for 10 years. We want to have some 
clarification and some understanding. If those numbers are not 
accurate, you take issue with those, I would like to know. I 
have been seeking this information and, quite frankly, it has 
been frustrating because I have sent most of you hear this 
panel letters to your organizations seeking clarification and, 
for the most part, getting a fairly incomplete answer.
    Let me go back to my prearranged comments.
    Border crossing cards are only issued to applicants who are 
citizens and residents of Mexico and ``must demonstrate that 
they have ties to Mexico to compel them to return after a 
temporary stay in the United States.'' Today I am interested in 
learning what the standard is for determining what types of 
ties are considered strong enough to qualify for a border 
crossing card.
    On July 17th, 2013, this subcommittee received testimony 
about rampant fraud in the asylum application process. 
Likewise, various reports, including from the Government 
Accountability Office, have previously identified the risk of 
potential fraud in the application and use of B1/B2s and border 
crossing cards. I hope we will discuss what steps the 
Department is taking to prevent fraudulent applications and the 
use of B1/B2s and the border crossing cards. GAO went out of 
its way to point out some flaws. We would like to know what 
sort of progress you have made over the years on this.
    Integrity in the issuance of the B1/B2 and border crossing 
cards is critical, and the enforcement of the law is just as 
important. But reports of visa overstays remain a challenge. In 
Mr. Woods' written testimony today, submitted to this 
committee, he wrote ``In fiscal year 2012, the CTCEU received 
38,355 B1/B2 violator leads.'' An automated vetting process 
closed nearly 24,325 cases, but still leaves ``14,010 potential 
violators.'' In other words, the subcommittee is being told 
right now, in terms of just B1/B2 violators, there are 
approximately 14,000-plus violations, and yet very limited 
resources and personnel in order to be able to enforce that. 
These are questions that we have on this committee.
    I have serious questions about fraud and the process and 
the potential lack of enforcement. Do we know where these B1/B2 
violators are? What are we doing on the enforcement side of 
thousands of violators?
    On April 2nd, 2013, members, including myself, Mr. 
Bentivolio, who is here with us, traveled to Yuma and Nogales, 
Arizona to see for ourselves what was happening. I visited the 
Eloy Detention Facility in Arizona, as did Mr. Bentivolio, and 
we were briefed by prison and ICE officials. We also visited 
various ports of entry in Yuma, Nogales, Naco, and other 
places.
    Based on our conversations with Customs and Border Patrol 
officers in Yuma, Nogales, and Naco, they had concerns about 
serious flaws in the issuance and enforcement of the B1/B2 and 
the border crossing card. I was also told the asylum applicants 
have received notice to appear for a court date before an 
immigration judge. When I visited with the ICE officers, they 
told me that if they apply for the asylum and the 
administrative judge believes they have reason to go before the 
judge and hear their case out, in Phoenix, if you, today, go 
through that process, there are only three judges, and guess 
what? Your court date is going to be in 2020. In the meantime, 
what do these people do? We have given no assessment as to 
whether or not they have credible fear. But guess what? They 
are going to get free health care; they are going to get free 
education; and they are probably going to apply for a worker 
card, just because they stepped foot into the United States and 
said I have some credible fear. And we don't have a process in 
order to go through and assess that, at least in Phoenix, until 
2020. That is what I was told.
    We also heard concerns from officers on the ground on the 
Southwest border that Customs and Border Patrol does not 
currently have a fully-implemented outbound exit capability to 
maintain data on exit from the United States into Mexico.
    All of these statistics, personal accounts, and new reports 
point to an alarming trend that suggests there may be serious 
flaws in our legal immigration system, in addition to showing 
where some of the newest threats may be emerging. We hope to 
not only discuss the potential flaws in the system, but 
solutions.
    I want to emphasize that I commend and support the hard 
work and dedication of our law enforcement officers, Customs 
and Border Patrol, ICE, State, the Department of Justice. We 
have a lot of really good men and women who every day work on 
this issue. They care about the Country; they care about doing 
the right thing. They are working hard in very difficult 
conditions. We want to make sure that they are well 
compensated. Just introduced a bill to help with ICE, 
particularly, and their compensation. I think the union is very 
excited about that.
    I have a number of things I want to add to this, but my 
statement is getting a bit long, so let me yield to the 
gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chaffetz, and thank all the 
witnesses for being here today.
    This hearing is the third in a series of subcommittee 
hearings focused on the immigration system of this Country, and 
I thank the chairman for his commitment to the topic.
    Our Country continues to debate the need for serious reform 
for our Nation's immigration laws. I hope, similarly, that the 
chairman will encourage his leadership to undertake serious 
consideration of reform, if not this year, then early next 
year. There are many ways that we can deal with a lot of the 
issues that were brought up in the opening statement of the 
chairman by taking on serious consideration of reform, and I 
hope we do that.
    Our focus today is on border crossing cards and B1 and B2 
visas, more commonly known as business and tourist visas. These 
visas allow tourists and business visitors from around the 
world to enter the United States for legitimate purposes, such 
as seeking medical treatment. Border crossing cards allow 
certain Mexican nationals to enter the United States 
temporarily if they stay within a certain distance from the 
border and help support border communities.
    However, as with other types of visas, these programs can 
be abused. Border crossing cards can be used fraudulently to 
allow unauthorized persons to enter the United States. Tourists 
can overstay their period of admission. And as we all well 
know, four of the 9/11 hijackers entered the United States and 
overstayed their visas.
    In May this year, we learned that one person arrested after 
the Boston Marathon bombings had been able to return to the 
United States an on expired visa. It is imperative that the 
departments and the interagencies continue to improve their 
collective efforts to protect our Country against public safety 
and national security threats.
    Today's hearing seems to be focused on a broader topic: the 
challenges with identifying and taking action against all visa 
overstays. So as we consider this important topic, it is 
important to first seek to understand the nature and the scope 
of the problem, and to avoid any rhetoric that often 
substitutes for serious discussion.
    First, contrary to some of the rhetoric, visa overstays 
appear to be a shrinking problem. According to Robert Warren, 
who is the preeminent demographer and the former Director of 
Statistics at the Immigration and Naturalization Service for 
nearly a decade, and John Robert Warren, the professor at the 
University of Minnesota, the number of annual non-immigrant 
visa overstays in the United States has dropped 73 percent over 
nearly a decade.
    There is a chart that we have, if you could put it up. 
Thank you.
    [Chart.]
    That chart indicates that visa overstays, while still an 
ongoing challenge for enforcement, is a shrinking problem. The 
study is important not only for its result, but because its 
office developed a methodology for estimating overstays that is 
widely accepted and used by other entities such as the Pew 
Hispanic Center.
    Second, identifying visa overstays seems to be largely a 
data collection problem. We are talking about a problem of 
record collecting and record keeping, essentially matching 
records of people who enter with records of people who leave. 
As far back as 2003, the Government Accountability Office, GAO, 
has reported that the department lacked an accurate list of 
visa overstays. The GAO has reported that the data on overstays 
has inherent limitations due to the challenges of collecting 
departure information, particularly at the United States land 
ports of entry. The reason for that: our border control systems 
are simply not geared towards the exit side as much as they are 
towards the entry side. I look forward to learning more about 
how the entry/exit system can be improved in light of these 
challenges.
    Nonetheless, on April 2011, the General Accountability 
Office reported that the Department of Homeland Security's 
arrival and departure information system contained 1.6 million 
unmatched records. While the Department reviewed and resolved 
863,000 records, it prioritized just over 1900 cases based on 
public safety or national security concerns. In 266 cases the 
individuals just could not be located. This may seem a small 
figure relative to the number of border crossings and potential 
overstays, but it is important nonetheless and shows the 
importance of pre-screening and vetting.
    This is not a problem that will be solved by more guides or 
guns and gates, as we often hear from the context of border 
security. The solution will require sound strategy, interagency 
coordination, and proper oversight, which is the role of this 
subcommittee.
    The Department appears to have taken some steps to improve 
the exit/entry system, and the Senate-passed comprehensive 
immigration reform bill would require the Department to take 
additional steps, including stepped up enforcement. It is a 
shame that the speaker has so far refused to take up 
consideration of this and other related measures, and again we 
hope that that situation will change.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. I thank the gentleman.
    Does any other member wish to make an opening statement? 
The gentleman from Massachusetts, Mr. Lynch, is recognized.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank the 
ranking member, as well, for convening this hearing.
    This hearing will examine the many challenges we have to 
address as part of a wider immigration reform: the tracking of 
those who enter legally, but overstay their visas. Congress has 
long mandated the establishment of an effective system to 
ensure that those who come here temporarily actually leave when 
their visas expire. Unfortunately, carrying out this 
requirement has proven to be a challenge both for the 
Department of Homeland Security, as well as its predecessor 
organization, the Immigration and Naturalization Service.
    Today, approximately 40 percent of undocumented immigrants 
currently in the U.S. originally entered with valid visas. 
While I understand that a study by the Center for the 
Immigration Studies found that the number of yearly visa 
overstays has dropped dramatically over the last 10 years, it 
is important that we fully understand what is working right and 
what is not working. Ultimately, though, only a comprehensive 
reform of our immigration system will give us the sustainable 
results that the American people need and deserve.
    Indeed, I believe, as Mr. Tierney mentioned, the Senate 
version of the immigration bill does contain language to 
address this problem; however, the speaker's recent statement 
makes the adoption of that language highly unlikely.
    Ultimately, we need to address every aspect of this issue. 
This means reforming our legal immigration system so it will 
work better, addressing the status of the estimated 11 million 
undocumented persons currently here; taking on the employers 
who exploit undocumented workers; and making our borders 
secure, more effective, and better tracking those who enter.
    I would like to thank our witnesses for coming. I look 
forward to this hearing and their testimony on the steps they 
have taken and need to take to ensure a more effective entry 
and exit system.
    Thank you, Mr. Chairman. I yield back.
    Mr. Chaffetz. I thank the gentleman.
    Does any other member wish to make a statement? Otherwise, 
members will have seven days to submit opening statements for 
the record.
    Now, I would now like to recognize our panel. Mr. John 
Wagner is the Acting Deputy Assistant Commissioner in the 
Office of Field Operations at U.S. Customs and Border 
Protection; Mr. John P. Woods is Assistant Director for 
National Security Investigations Division at the U.S. 
Immigration and Customs Enforcement; Mr. Edward J. Ramotowski 
is Deputy Assistant Secretary for Visa Services at the U.S. 
Department of State; and Mr. Juan Osuna is Director of 
Executive Office for Immigration Review at the United States 
Department of Justice.
    I thank you four gentlemen for being here. Pursuant to 
committee rules, all witnesses will be sworn in before they 
testify. If you would please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Chaffetz. Thank you. You may be seated.
    Let the record reflect that the witnesses all answered in 
the affirmative.
    In order to allow time for discussion, we would appreciate 
it if you would limit your verbal comments to five minutes. We 
are pretty generous with that in a hearing like this. Your 
entire written statement will be made part of the record and 
there may be times during this hearing where we ask for 
additional information. If you agree to provide us that 
information, it too will be entered into the record as best we 
can.
    I thank you gentlemen. We will start with Mr. Wagner. You 
are now recognized for five minutes.

                    STATEMENT OF JOHN WAGNER

    Mr. Wagner. Thank you, Chairman Chaffetz, Ranking Member 
Tierney, distinguished members of the subcommittee. Thank you 
for the opportunity to appear today to discuss border crossing 
cards and B1/B2 visas.
    In concert with our partner, CBP works to ensure that any 
risk factors where document deficiencies are addressed before 
boarding a commercial conveyance to the United States and all 
land border travelers are properly credentialed and risk-
assessed before admitted into the United States.
    I would like to begin today by discussing the important 
steps we have taken to enhance security at the land borders, 
while facilitating legitimate travel and trade.
    The Western Hemisphere Travel Initiative, also known as 
WHTI, was fully implemented in June of 2009. Prior to WHTI, a 
person could use one of thousands of different documents with 
varying levels of security to demonstrate both their identity 
and citizenship status. Today we have limited that number to a 
handful--such as the U.S. passport card, border crossing cards, 
lawful permanent resident cards, trusted traveler cards, and 
enhanced driver's licenses--that all have stringent physical 
security features--radio frequency identification, or RFID 
chips, and biometrics in our databases.
    The use of travel documents with RFID allows us to verify 
the photograph of the traveler and validate it against the 
issuing database in real time. It also allows quick and 
efficient querying of law enforcement databases and terrorist 
indices. For non-U.S. citizens, these travel documents also 
allow us to confirm the fingerprint biometrics taken at time of 
issuance against the traveler presenting the document. At the 
land border, this is typically done in a secondary inspection 
environment.
    Since the implementation of WHTI, over 23 million RFID 
WHTI-compliant documents have been issued. Our query rates of 
these documents, of the travelers crossing the border, has 
risen from about 5 percent to over 97 percent today. So when a 
traveler arrives at the land border, they are all subject to 
inspection by a CBP officer. The officer will review the 
results of the database queries, compare the photograph on file 
with the traveler, review the travel document authenticity, and 
question the person to determine the purpose and intent of 
their travel. This is a risk assessment to determine whether 
any further inspection is necessary based on concerns for 
national security, identity, customs, agriculture concerns, 
and, for visitors, any indications that they may not comply 
with the terms of their admission.
    At the Southwest land border, a citizen of Mexico 
presenting a B1/B2 visa in the from of a border crossing card 
may be admitted by CBP for a limited visit to the United 
States. They are able to stay up to 30 days within the 
geographic border zone. The border zone was established in 1953 
to promote the economic stability of the border region by 
allowing for freer flow of travel for Mexican visitors with 
secure documents. Today, the zones are within 25 miles of the 
border in California and Texas, 75 miles in Arizona, and 55 
miles in New Mexico. These zones were determined based on the 
distance of major economic centers from the border.
    Now, while we do not record the exit from the U.S. of these 
travelers, a preliminary review of our entry data shows that 
roughly 90 percent of all border crossing cardholders do in 
fact return to Mexico, as they do have subsequent entries into 
the United States during a certain time period thereafter.
    If the citizen of Mexico intends to travel beyond the 
border zone, they must first go through a secondary inspection 
at the port of entry, where a CBP officer will interview the 
person regarding the purpose and intent of their travel, 
perform additional database queries, compare the fingerprints 
electronically against the fingerprints taken by Department of 
State during the BCC issuance and against the biometric watch 
lists. The person must also demonstrate ties to Mexico, such as 
proof of residence or employment in Mexico. At the conclusion 
of the interview, CBP will issue the traveler an I-94 admission 
document with the duration of their authorized visit to the 
United States. This is a similar inspection process that would 
occur had the same individual arrived at an airport in the U.S.
    BCC restrictions are reinforced through the staffing of 
checkpoints on major highways and interstates by U.S. Border 
Patrol agents who verify travelers' documents. If a traveler is 
encountered outside of the border zone area without proper 
documentation, he or she is found in violation of the terms of 
their admission.
    Other travel documents that are authorized in lieu of a 
passport at the land border are trusted traveler program cards 
such as Nexus, Sentry, and Global Entry. CBP has worked with 
the Government Printing Office to ensure the physical security 
of these cards and the inclusion of RFID chips to ensure that 
they are validated and queried upon each arrival in the U.S. As 
you are aware, these programs allow for expedited processing of 
low-risk travelers, allowing CBP officers to refocus their 
efforts on travelers we know less about.
    So, in conclusion, CBP also operates and monitors a visa 
hotlist, a tool to re-vet previously issued visas against 
lookout records to identify persons whose eligibility for a 
visa or entry to the United States has changed since issuance 
of that visa. Relevant information that is uncovered is passed 
to Department of State, ICE, or other agencies, as appropriate. 
This continuous re-vetting by CBP has resulted in revocation of 
over 3,000 visas by Department of State since this inception in 
March of 2010.
    Visa and document security is a critical element of CBP's 
later approach to securing our borders. CBP, in cooperation 
with our Federal partners, foreign counterparts, and the travel 
industry continue to apply innovative solutions to enhance 
current efforts to mitigate threats to our Country.
    Thank you for allowing me the opportunity to testify today, 
and I look forward to answering your questions.
    [Prepared statement of Mr. Wagner follows:]

    [GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]
    
    Mr. Chaffetz. Thank you. Appreciate it.
    Mr. Woods, you are now recognized for five minutes.

                   STATEMENT OF JOHN P. WOODS

    Mr. Woods. Chairman Chaffetz and Ranking Member Tierney, 
distinguished members of the subcommittee, it is a pleasure to 
appear before you and have an opportunity to discuss ICE's 
efforts to identify and target for enforcement those who have 
overstayed their period of admission and who represent a public 
safety or national security threat to this Country.
    ICE's Overstay Analysis Unit utilizes biographical entry 
and exit records stored in the Arrival and Departure 
Information System, or ADIS, to identify international 
travelers who have remained in the United States beyond their 
authorized period of admission. In this process, ICE vets the 
ADIS potential violators against a multitude of other DHS data 
sets to enhance accuracy of the data and determine 
prioritization of the potential leads. This analysis supports 
the Department's commitment to enhance its vetting initiatives 
across the full mission spectrum of Homeland Security.
    The analysts validate two types of non-immigrant overstay 
records: out-of-country overstays and in-country overstays. The 
out-of-country overstay records pertain to visitors who have 
stayed beyond their authorized period of admission and 
subsequently depart the United States. The Overstay Analysis 
Unit validates these violations based on their reported 
departure dates and creates a biometric and biographic lookout 
for these subjects should they attempt to reenter the United 
States in the future.
    The in-country overstay records pertain to visitors who 
remain in the United States with no evidence of departure, 
change or addressment of their immigration status upon 
expiration of their terms of admission. The Overstay Analysis 
Unit reviews and validates the ADIS system identified 
violations based on ICE identified categories of interest. The 
Overstay Analysis Unit makes overstay and status violation 
referrals to the HSI Counterterrorism and Criminal Exploitation 
Unit, or CTCEU, who in turn attempt to identify and locate 
leads within the United States where the overstay violator may 
be located by special agents in the field for investigation of 
their status and ability to lawfully remain in the United 
States.
    HSI prioritizes its cases for investigation from several 
potential violator categories. The first, of course, is like I 
said, the ADIS leads from the Overstay Analysis Unit that 
provides non-immigrant visa overstay leads and potential visa 
waiver program country violators. Another source is admitted 
watch list leads. This includes the records of individuals who, 
at the time of admission to the United States, were subject of 
a watch list record containing derogatory information that did 
not render the individual inadmissible to the United States, 
but did warrant monitoring of their visit.
    Additionally, CTCEU monitors individuals who, after entry, 
had their visas revoked by the Department of State. Although 
these individuals may still be within their lawful period of 
admission, an investigation is warranted to determine whether a 
violation of the terms of their admission has occurred.
    And then, finally, due to the duration of status admission 
period provided to foreign students in the F, J, and M 
categories, the CTCEU conducts recurrent vetting of the Student 
Exchange Visitor Information System to actively monitor and 
determine whether new derogatory information is developed or 
obtained on an active student which may warrant further 
investigation.
    The HSI CTCEU is the only national program dedicated to the 
enforcement of non-immigrant visa violations and is responsible 
for identifying and targeting those non-immigrant visa holders 
who could pose a threat to our national security or public 
safety. Each year, the Unit analyses the records of hundreds of 
thousands of potential violators and, as stated in your opening 
remarks, chairman, in fiscal year 2012 the CTCEU received over 
38,000 B1/B2 potential violator leads and, through an automated 
vetting process, closed more than 24,000 of those cases, 
identifying either a subsequent departure from the United 
States or an adjustment of status through USCIS. More than 
14,000 violator leaders were identified for investigation and 
approximately 1,000 cases have been initiated thus far that 
have made HSI CTCEU national security criteria.
    Again, we continue to make great progress in our ability to 
identify and target for enforcement action those who have 
overstayed their period of admission and who represent a public 
safety or national security threat to our Country. 
Technological advances have created unprecedented opportunity 
for law enforcement to identify and mitigate national security 
and public safety threats in a more efficient and expeditious 
manner than ever before.
    I would like to thank you again for the opportunity to be 
here today, and I look forward to answering any questions that 
you may have.
    [Prepared statement of Mr. Woods follows:]

    [GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]
    
    Mr. Chaffetz. Thank you.
    Mr. Ramotowski, please.

               STATEMENT OF EDWARD J. RAMOTOWSKI

    Mr. Ramotowski. Good morning, Chairman Chaffetz, Ranking 
Member Tierney, and the distinguished members of the 
subcommittee. I thank you for calling this hearing today and 
for your continued commitment to the Department's twofold 
mission: to keep America safe while we welcome legitimate 
visitors who grow the U.S. economy and create jobs.
    The B visitor visa, which permits travel to the United 
States for temporary business and pleasure, is central to these 
efforts. Like most of my consular colleagues, I have 
adjudicated thousands of B visas during my 27-year career as a 
Foreign Service officer, and during that time I have witnessed 
tremendous advances in the tools that we employ to adjudicate 
visas efficiently and, most importantly, in a way that protects 
the security of our Nation's borders.
    Our highest priority in adjudicating visitor visa 
applications is the safety of American citizens at home and 
abroad. Together with our partner agencies, we have built a 
layered visa and border security screening system that rests on 
enhanced training, technological advances, biometric 
innovations, and expanded data sharing. Security remains our 
primary mission, and for us every visa decision is a national 
security decision.
    Visas also play a significant role in maintaining our 
Country's economic security. International tourism has a 
significant impact on the U.S. economy and, according to 
Department of Commerce figures, creates one new American job 
for every 65 additional visitors that we bring to our shores.
    The Department strives to ensure that the B visa 
application process is straightforward. Every post provides 
detailed visa application instructions on its website, both in 
English and in the local language. The B visa application 
begins when the applicant completes the online non-immigrant 
application form. This application requires the completion of 
biographical data, information on the purpose and destination 
of travel, and answers to a series of questions that could 
signal potential grounds of inadmissibility.
    Like all these applicants, B category visitors must qualify 
under the provisions of U.S. law and may be denied on grounds 
including, but not limited to, previous immigration violations, 
membership in terrorist organizations, and criminal activity. 
In the B visa category, applicants must also overcome a 
statutory presumption of immigrant intent. Most B visa 
applicants must be interviewed by a consular officer. This 
personal interview affords the applicant an opportunity to 
present evidence establishing the veracity of his or her 
application. At the same time, a personal interview allows the 
adjudicating officer to elicit information necessary to 
establish the applicant's eligibility for the visa category, to 
reconcile any discrepancies in the information provided by the 
applicant, and to delve more deeply into any potential grounds 
of inadmissibility.
    All these applicants are vetted through a full suite of 
security checks. The visa software used to process visitor and 
other visa categories will not permit the issuance of any visa 
until all results have been vetted by a cleared and trained 
U.S. citizen consular adjudicator. The Department, DHS, and 
other partner agencies work hand-in-hand to ensure that 
consular adjudicators have immediate access to the full range 
of relevant data on visa applicants in a 24/7 global 
environment. Likewise, the Department provides other agencies 
immediate access to our own data.
    In partnership with DHS and the FBI, we have established 
the largest fingerprint screening program in the globe. Visa 
applicants' fingerprints are vetted against DHS and FBI 
databases at the time of adjudication, and they are later 
verified by Customs and Border Protection officers when the 
applicant appears at a port of entry. The Department uses 
facial recognition technology to screen all these applicants 
against a watch list of photos of known and suspected 
terrorists obtained from the FBI's Terrorist Screening Center, 
as well as against the entire gallery of visa applicant photos 
contained in our consular database.
    Launched during the summer of 2013, the Kingfisher 
Expansion Program is our new method of conducting interagency 
counterterrorism screening. All visa applications are now 
reviewed by the National Counterterrorism Center in a highly 
classified environment and can be referred immediately for a 
Washington-based interagency review if warranted.
    In conclusion, we have built strong partnerships with DHS 
and other law enforcement agencies to ensure that real-time 
flow of information necessary for keeping our borders secure. 
Finally, we maintain a sophisticated, highly trained staff of 
multilingual adjudicators who provide the cultural awareness, 
knowledge, and objectivity necessary to ensure that the visa 
process essential to our economic security also remains the 
frontline of border security.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Ramotowski follows:]

    [GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]
    
    Mr. Chaffetz. Thank you.
    Mr. Osuna.

                    STATEMENT OF JUAN OSUNA

    Mr. Osuna. Good morning, Mr. Chairman, Ranking Member 
Tierney, and other distinguished members of the subcommittee. 
Thank you for the opportunity to speak with you today about the 
Department of Justice's Executive Office for Immigration 
Review, or EOIR.
    Our agency is responsible for conducting civil immigration 
removal proceedings through our immigration courts located 
around the Country and our appellate level court, the Board of 
Immigration Appeals. While our judges have no role in 
determining the guilt or innocence of aliens charged with 
criminal wrongdoing at the border or in the interior, we are 
certainly affected by law enforcement activity at the border 
and beyond. Every alien that the Department of Homeland 
Security formally charges with being removable from the U.S. 
results in another case for EOIR, and our trial and appellate 
judges are responsible for deciding whether the person should 
be removed from the U.S. or whether he or she merits some sort 
of relief from removal.
    With 348,000-plus proceedings pending at the end of fiscal 
year 2013, we are currently managing the largest caseload the 
immigration court system has ever seen. Overall, there are 252 
immigration judges located in 59 immigration courts around the 
Country. Many of our courts are located near or along the 
southern border, including San Diego, El Paso, and Harlingen, 
Texas; and along the northern border, including Seattle, 
Detroit, and Buffalo. Some courts are located within INS-ICE 
detention centers, thereby making the adjudication of those 
cases involving detained aliens at those facilities much more 
efficient. These include the border locations of East Mesa 
California, Eloy, Arizona, where I think you visited, Mr. 
Chairman, and Port Isabel, Texas, along the southern border; as 
well as Batavia, New York along the northern border.
    In order to address the immigration courts significant 
caseload, EOIR requires adequate resources. Most crucial is the 
ability to properly staff our immigration courts with the 
immigration judges and support staff needed to most efficiently 
and fairly process cases. For fiscal year 2013, EOIR was funded 
at $289.1 million post-sequestration, which is more than $13 
million below the fiscal year 2012 funding level. The resources 
that the President's budget requests for fiscal year 2014 are 
essential to our ongoing efforts to recruit, train, and equip 
top-quality immigration judges and support staff.
    The highest priority cases for EOIR are those involving 
detained individuals, and the agency focuses on the efficient 
and timely adjudication of such cases. These individuals are 
often detained by DHS because they have criminal convictions 
that may make them deportable from the Country and because they 
may pose a risk of flight or a public safety risk. In addition, 
detention is expensive and it implicates a liberty interest for 
the individuals detained. Therefore, these cases always rise to 
the very top of our priority list.
    In this world of limited resources, however, placing a high 
priority on the adjudication of the detained cases has 
implications for the non-detained side of the docket, including 
some cases initiated as a result of a person seeking asylum in 
the U.S. EOIR, however, understands that its mission includes a 
timely adjudication of all cases, detained and non-detained, 
and strives to complete every case as quickly as possible 
within the constraints of due process.
    The utmost priority for every type of case is that the 
facts are fully considered and every application of law is 
correct. As with all hearings before our tribunals, EOIR is 
very focused on protecting the integrity of immigration 
proceedings. The agency has a robust and active program for 
identifying and referring claims of fraud encountered by 
immigration judges and the Board of Immigration Appeals, and we 
work very, very closely with our partner agencies to identify 
and take action against those individuals who perpetrate fraud 
against the court system. This program also allows us to 
safeguard aliens from falling prey to a growing notario 
problem, which is a problem that every agency has to deal with 
that deals with immigration cases.
    The complaints and requests for assistance that our fraud 
program receives each year are almost evenly divided between 
unauthorized practice of immigration law complaints and 
fraudulent claims perpetrated against the Government. As an 
illustration of our fraud program, we are currently a 
participant with the FTC in the Sentinel Network, which is a 
consumer protection network, and we have referred about 70 
cases to the Network of potential fraud in the last couple 
years.
    Mr. Chairman, Representative Tierney, and other 
distinguished members, despite the large caseload that EOIR 
faces, we continue to make great strides. Our adjudicators and 
staff are dedicated professionals who work every day to ensure 
efficient and fair immigration court proceedings, both at the 
trial and the appellate levels. While we face the demands of a 
large and increasing caseload, with your continued support we 
are confident that we can continue to meet that challenge.
    Thank you for the opportunity to speak with you today, and 
I look forward to answering any questions you might have.
    [Prepared statement of Mr. Osuna follows:]

    [GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]
    
    Mr. Chaffetz. Thank you.
    I will now recognize myself for five minutes.
    I don't want to spend the bulk of my time trying to get you 
to respond to lettres that we send you, specifically to 
Homeland Security. I have a problem when I send you a letter in 
July asking for some basic information and I get the response 
last night, after hours, to which most answers are we'll get 
you this information later. My colleagues, I think in a very 
sincere way, are trying to point out that these overstays are 
less of a problem, but when I ask the Department of Homeland 
Security to provide a document describing the total number of 
overstays, the response was Homeland Security will provide more 
specific information on overstays by the end of the calendar 
year. I asked this question in July. This is the answer you 
gave me last night. I don't know how anybody can make the case 
that this is less of a problem or even more of a problem when 
Homeland Security can't even tell me what the numbers were in 
2009.
    I also don't understand, from Homeland Security, why, when 
I issue a letter on August 26th, I get no response. I have had 
no response.
    Mr. Woods, why do I not get answers to the questions we 
ask?
    Mr. Woods. Chairman, I will take your concerns back to the 
Department.
    Mr. Chaffetz. No. You are the representative from Homeland 
Security. What is intolerable to this committee, and it has 
happened on both sides of the aisle, is we don't get answers to 
very basic questions. Don't tell me you are just going to carry 
the message back. I carried the message to the secretary and to 
the Department. Why don't you have answers to those questions? 
Why do these letters go unanswered?
    Mr. Woods. It is my understanding that your July letter was 
answered last evening, and I apologize for the delay in that 
letter. It went through a lengthy clearance process. There were 
many questions to answer, and it is my understanding----
    Mr. Chaffetz. Most of the answers are we are going to get 
you the answers later.
    Mr. Woods. It is my understanding that the Office of 
Immigration Statistics is committed to publishing the overstay 
rates by the end of this calendar year.
    Mr. Chaffetz. I asked for them back in--do you have the 
numbers for 2009?
    Mr. Woods. I do not have the numbers for 2009 right at this 
time. From what I understand at the time----
    Mr. Chaffetz. What I want you to understand and take back, 
look, I am sure you are a very nice gentleman. You are the 
person, though, that your agency put up here in front. It is 
nothing personal. But when I ask for this in writing, in 
letter, trying to be nice, polite, give you plenty of time, in 
July, it should be a clue that when we come and have a hearing 
in November that I might ask you this question. You take up 
half my time trying to get you to do what we asked you to do 
politely just in writing from what the statistics are in 2009. 
This is what is so terribly frustrating about trying to 
interact with this Administration, it is the lack of 
information about this.
    Now, let me go to the Department of State, Mr. Ramotowski. 
Help me understand this definition of--in order to get a border 
crossing card, Mexico, these are for Mexican citizens to come 
to the United States, they have to demonstrate ties to Mexico. 
We believe, as a Government, that they will want to go back to 
Mexico. Can you define what that is? Because I am having a hard 
time finding what the definition and the leniency that maybe 
somebody from the Department of State is going to give somebody 
to get one of these border crossing cards. What does it take?
    Mr. Ramotowski. Mr. Chairman, we evaluate each and every 
visa application on its own individual merits and, as you 
pointed out, the law requires each applicant to demonstrate 
that they are not an intending immigrant. So the consular 
officer will evaluate that applicant's case based on their 
circumstances.
    Mr. Chaffetz. Do you know the average time that the 
application is reviewed?
    Mr. Ramotowski. It varies by country.
    Mr. Chaffetz. No, we are talking about just Mexico, because 
I am just talking about just border crossing cards, which are 
only available----
    Mr. Ramotowski. In Mexico, that is correct.
    Mr. Chaffetz.--in Mexico. So it doesn't vary by country, it 
is only Mexico.
    Mr. Ramotowski. Okay. For Mexico, the average time would be 
in the neighborhood for three to four minutes for a consular 
interview.
    Mr. Chaffetz. And what documentation is required to make 
this?
    Mr. Ramotowski. What is required is our DS-160 electronic 
visa application form, and the consular officer is entitled to 
request any other document that he or she needs in order to 
make a decision.
    Mr. Chaffetz. As a minimum, what documentation do you need? 
As a Mexican. A Mexican comes up, filed his application. What 
documentation do they need to provide as a minimum?
    Mr. Ramotowski. As a minimum, as I said, the application is 
the only required document. If the consular officer doubts the 
applicant's answers----
    Mr. Chaffetz. So there is no passport, no----
    Mr. Ramotowski. A passport is required, yes, in addition to 
the application form.
    Mr. Chaffetz. Birth certificates?
    Mr. Ramotowski. Birth certificates are not required unless 
the officer has reason to doubt the identity of the individual 
that is standing before them.
    Mr. Chaffetz. So they must have a Mexican-issued passport.
    Mr. Ramotowski. That is correct.
    Mr. Chaffetz. What is the opportunity or what are the 
latitude that they have to waive that requirement?
    Mr. Ramotowski. A passport cannot be waived. A Mexican 
citizen has to travel to the U.S. with a passport and a border 
crossing card.
    Mr. Chaffetz. And my last question, I have gone over my 
time here, unfortunately, and we are going to come back with 
several rounds here, I promise you that, why such a dramatic 
increase? We have nearly 300,000-plus, more than 300,000 border 
crossing cards issued in the Obama Administration than the Bush 
Administration. I just want to know why.
    Mr. Ramotowski. I think there are several reasons for that, 
Mr. Chairman. Visa demand, border crossing card demand in 
Mexico tends to be cyclical because the cards are issued for a 
period of 10 years, and when you come to the end of a 10-year 
period, a larger group of applicants are renewing their cards. 
Another reason is that overall travel demand to the United 
States has been increasing. We are seeing that in a number of 
countries around the world. Private industry and cities, 
States, and towns have been heavily promoting the U.S. as a 
tourist destination. Demand dropped drastically after the 9/11 
attacks and it is now recovering.
    Finally, with respect to Mexico, initially border crossing 
cards were mainly issued in our five border consulates, and the 
consulates and the U.S. Embassy in Mexico City issued standard 
visas. But now Mexico has converted to issuing the border 
crossing card, B1/B2 visa card exclusively, so you are going to 
see, simply because we have shifted more of the demand in 
Mexico to these cards, and the reason for that is the card 
helps CBP at the border because it contains an RFID chip, which 
enables the CBP officer to get that data as a car drives up to 
the border.
    Mr. Chaffetz. And perhaps we will have time to explore why 
the rejection rates are so different between the two 
administrations.
    But I will now recognize the gentleman from Massachusetts, 
Mr. Tierney.
    Mr. Tierney. Thank you.
    Mr. Woods, first of all, let me add some comments to the 
chairman's request for documents and whatever. It is very 
difficult for us to determine any materials around here as an 
oversight unless the Department is cooperative and gets us 
those materials. He has a phone, so if for some reason they 
can't be answered, you are busy doing your bureaucratic ping 
pong over there or whatever, which I understand you are forced 
to go through, and that ought to be revised, somebody could 
contact the committee, let them know where they stand on that 
process, offer what it is they have in the meantime. Actually, 
some of these responses, please contact the Department of State 
to obtain the information. Well, that could have been given the 
first day, to reroute him to where he should go, instead of 
waiting months and now have to start all over again with a 
different Department.
    This is a bipartisan request in terms of that. When a 
request for information is made, if you legitimately don't have 
the information, then pick up the phone or pay a little visit, 
we are not that far away, and explain why not. And if you are 
redirecting it to another department, that is two minutes. That 
ought to be given immediately on that so people can start in a 
different direction on that. That is one message I would like 
you to take back and issue on that, and then we can try to get 
going.
    I did put up a chart there which indicated from some very, 
I think, credible individuals that at least from 2000 to 2009, 
the non-immigrant visa overstays seemed to have a trend 
downward, significant trend downward, and I know the Pew 
Hispanic Center trends project indicates that there is an 
uptick. They say not a significantly determinative uptick in 
the last couple of years on that, but it would be helpful for 
us to know what those numbers are, coming from the source on 
that. But if we assume, at least, that that 73 percent decline 
from 2000 to 2009 is reliable information on that, can you tell 
me what you say accounts for that trend?
    Mr. Woods. Sir, I think there is a multitude of reasons 
that account for that trend. We have much more robust vetting 
up front, before people are issued visas, to determine what 
their intentions are in coming to the United States. So if they 
are intending immigrants, the State Department does not issue 
visas. Additionally, we do have a targeting enforcement program 
that identifies those people who are public safety and/or 
national security threats to go out and arrest them and remove 
them from the United States. We have a robust recurrent vetting 
process that CBP handles on a daily basis with all the active 
visas, and determines those individuals that may, up-front, be 
not admissible to the United States; it may be a potential 
oversight. So there are a multitude of reasons, a layered 
approach here.
    Additionally, they now understand that the Bureau of Office 
of Immigration Statistics within DHS will be issuing the fiscal 
year 2012 statistics this year. We are in the process of 
pulling the raw data of the fiscal year 2013 so that we can 
provide them a side-by-side comparison. This way they can see 
whether the actual trend is upward or downward. But we hope 
that we are committed to publishing the fiscal year 2012 data 
by the end of this calendar year and then have the fiscal year 
2013 data shortly behind that, or hopefully maybe 
contemporaneously with it.
    Mr. Tierney. Thank you. Are you maintaining records 
indicating a large increase in the number of rejected 
applications?
    Mr. Woods. We don't maintain records on applications, that 
would be the Department of State that handles the applications.
    Mr. Tierney. Mr. Ramotowski, are you maintaining any 
records on that, indicating whether there has been an increase 
in the number of applicants for visas or not?
    Mr. Ramotowski. Yes, we maintain records on that, and 
globally visa demand has increased in recent years. In Mexico, 
however, for fiscal year 2013, demand has been down by 
approximately 14 percent for border crossing cards and B visas. 
So, again, demand fluctuates by country and over time.
    Mr. Tierney. Thank you.
    So back to you, Mr. Woods, even if it is going down, we saw 
that trend, there are still some people coming in and 
overstaying, so the issue gets back to the information we take 
on entry versus the information we get on exit. Now, the Senate 
bill, the total comprehensive reform immigration did provide 
that the Department of Homeland Security establish an automated 
exit system that would collect biographic information from 
departing foreign visitors at air and seaports by the end of 
2015 and require the Department of Homeland Security to 
establish an exit system for collecting biometric information 
at 10 airports, which would later be expanded to 30.
    Is that something that the Department feels would be useful 
in addressing this issue?
    Mr. Woods. I am going to defer to Customs and Border 
Protection; they run the ports of entry and would be setting up 
that program. But I can say this before, that we have, over the 
last two years, enhanced our interconnectivity with the CBP and 
the CIS to better validate overstay records through both 
biographical and biometric matches, and our match rate is up 
substantially to show that we can validate those records at 
this time, and that is the reason we will be publishing the 
fiscal year total status this year. But I will defer to CBP for 
the----
    Mr. Tierney. The later is to you, Mr. Wagner. Can you tell 
us whether or not that proposed system would be useful or 
helpful on that, or whether it actually can be done, 
practically speaking? Can we get that kind of an exit system up 
and operating so it would be effective?
    Mr. Wagner. Yes, happy to address that. We were given the 
responsibility for the entry/exit mission in April with our, 
this past year, appropriation, so we are busy working on 
setting up an entry/exit program management office that will 
set up a demonstration and prototype lab over the course of the 
next year. We will be looking at the different technologies, 
the different biometrics. Really, the key here, it is not so 
much the technology, it is where you put it in that process to 
make it meaningful. Right now, today, we do biographic entry/
exit tracking, so the addition of biometrics into that is not 
going to get us additional records in the air and sea 
environment; it is going to confirm the biographic data that we 
already have today. But we have to put it in such a place that 
we have confidence that that person who registered their 
biometrics, whatever that is, actually boarded that aircraft or 
boarded that conveyance to leave the United States, and they 
didn't just turn around and walk right out of the airport, 
thereby then just defaulting to the same exact system we have 
in place today.
    So we want the information. We want to get it, we want to 
use it, but we want to do it in such a way that it doesn't 
cause gridlock at the airports and that it is done in a 
meaningful way, that it doesn't end up jeopardizing or looking 
at the expenditures to do this and thus jeopardizing even our 
authority to collect this type of information. So we will be 
working over the course of the next year to determine what the 
concept of operations are, what are the right different 
biometrics to do this, and then looking at running a 
demonstration at a port of entry, at an airport, sometime in 
2015. So we have some concerns with the time lines in the bill. 
We have some concerns, of course, about the funding of what it 
would cost to do this. We are asking for a little bit more time 
over the course of next year to really do this right and doing 
it meaningful.
    Land borders is a whole different set of challenges. We 
would struggle with finding the right type of biometric to 
collect on inbound without really creating gridlock and 
capacity issues at the ports of entry that already experience 
wait times now, and that is just on the inbound case. On the 
outbound case even more difficult because the infrastructure is 
not there and the physical infrastructure is not there. In a 
place like San Ysidro, we have 20-something lanes of inbound. 
There are only a handful of lanes going out into Mexico. So to 
replicate the inbound and outbound process will be quite costly 
and quite tremendous of a project to take on.
    Now, what we are doing, we are collecting all the inbound 
biographical data at the land borders. What we started with 
Canada this past year is an exchange of their inbound data for 
our inbound data, and we are able to exchange those 
biographical records so we have a confirmation via entry into 
Canada that that person did in fact depart the United States; 
and we are exchanging that data today now on all non-U.S., non-
Canadian citizens. We will be expanding that to U.S. and 
Canadians at some point next year.
    Mr. Tierney. With your permission, Mr. Chairman, just one.
    So are you going to do a cost-benefit analysis? It seems to 
me the cost of replicating an exit system similar to the entry 
system is going to be huge.
    Mr. Wagner. Yes. We will look at those considerations.
    Mr. Tierney. Thank you.
    Mr. Chaffetz. I now recognize the gentleman from Arizona, 
Mr. Gosar.
    Mr. Gosar. I will just keep you on the hot spot, because 
you just led me into some questions. When you are looking at 
these biometrics, are we going to share them with all law 
enforcement throughout State, local, and Federal entities?
    Mr. Wagner. We would share them with any permissible use of 
sharing any information.
    Mr. Gosar. So we would actually engage them. So not just 
looking at ports of entry, airports, port waterways, but we 
would work with local entities? I am from Arizona, by the way, 
so that is why it is a pointed question for us. We seem to have 
this disconnect by looking and working with local and State law 
enforcement officials. You would share these biometrics so that 
we have numerous ports of looking at the biometrics of 
overstays?
    Mr. Wagner. Well, as with any information we would collect, 
we would share it with whatever is a permissible use of the 
information we have.
    Mr. Gosar. Okay.
    Mr. Ramotowski, some of the things that we have seen lately 
in forged documents, even leading in Florida to two mass 
murderers, actually, or murderers being allowed out of jail. In 
replication of this chip and this border crossing aspect, what 
is our dimension of forgery?
    Mr. Ramotowski. One of the biggest advances in both visas 
and border crossing cards was including the biometric 
fingerprint, which is a tremendous link to the applicant's true 
identity, and that has cut forgery by a tremendous amount. We 
also have at all of our embassies and consulates designated 
fraud prevention officers, and at the larger and medium-sized 
ones we have dedicated fraud prevention units who work 
continuously with our visa officers, with diplomatic security, 
special agents, with law enforcement agents from other U.S. 
Government agencies to investigate fraud scams, immigration 
scams, and to detect trends in alien smuggling and other risks 
to our national security. That information is continuously 
communicated to our visa officers so that they have up-to-date 
information about the applications that they are handling.
    Mr. Gosar. Are they having harder times in regards to 
supporting documents being forged? The cross-link here is 
incredible. What you can do with a computer and Adobe printer 
is just amazing.
    Mr. Ramotowski. Yes. We put a lot of effort in training our 
officers to detect fraudulent documents, but we also train our 
officers to focus in their interviews on the applicant and his 
or her purpose for traveling so that they can detect whether 
the applicant's story makes sense in the cultural context in 
which they are applying. Does the planned travel fit the 
applicant's profile? Does it make sense given their ties to the 
country that they are applying in? We want our officers to 
focus on the whole picture, and not just one specific set of 
documents.
    Mr. Gosar. Would it be easier in the border crossing cards 
to have a uniform, some type of agreement between border States 
of distance that would be uniform that everybody would accept? 
Would that be helpful in regards to the border crossing cards?
    Mr. Ramotowski. Let me clarify, sir, that the border 
crossing card that we issue in Mexico is also a B1/B2 visa, so 
an individual can be admitted by Customs and Border Protection 
to travel anywhere in the Country.
    Mr. Gosar. Mr. Osuna, a real curiosity I have here. What 
does it really take to get somebody here on a political amnesty 
aspect out of this Country? Would you say three felonies? Would 
that take----
    Mr. Osuna. Congressman, are you asking what it takes to get 
somebody removed?
    Mr. Gosar. Yes.
    Mr. Osuna. Well, the immigration laws have various 
provisions based on criminal activity. So DHS can charge 
somebody with being removable from the Country based on drug 
convictions, crimes of violence, a long list of what are called 
aggravated felonies, which are pretty severe, because if 
somebody is convicted of an aggravated felony and an 
immigration judge finds that they are removable for an 
aggravated felony, they are actually not eligible for any sort 
of relief from removal, like asylum and things like that. So 
the laws already provide some fairly robust enforcement 
provisions that are pretty unforgiving for people who commit 
crimes in the U.S., and there is a long history going back on 
that.
    There are other provisions that are also in the grounds of 
removability not based on criminal convictions, overstays and 
things like that. But for the criminal grounds that the judges 
handle, those are pretty harsh and intended to be pretty harsh 
provisions in the law already.
    Mr. Gosar. Well, there must be an exception to that rule 
down in Arizona in regards to a gentleman that was an Iraqi 
political asylum aspect. Maybe you are familiar with the 
gentleman. I mean, three prior felonies, tried to blow up the 
Social Security building on 2011, right down from my office. 
And we are trying to figure out what it actually takes for a 
political asylum person, when they convict aggravated 
felonies--this guy spent time in jail in Arizona--and why it 
takes such a long time to get some adjudication here.
    Mr. Osuna. I am not familiar with that particular case. It 
may be a case that was not in our court system. It may not have 
been brought to us yet, but, again, if it is a case that you 
are interested in, we can certainly look into it. If it is in 
our court system, we can try to get you some information. I 
would caution, however, that we are somewhat limited, 
especially if it is an asylum case, of what information we can 
give out, but I am happy to get back to you on that.
    Mr. Gosar. I would like that, because it seems to me that 
that is that integration that I was talking to Mr. Wagner 
about. It should be in your court system. And it should not be 
if, it should be it is in your court system, and that we have a 
follow-through in regards to that, because the safety of people 
are at stake.
    Thank you.
    Mr. Chaffetz. If you would indulge me for one moment. I 
just want a point of clarification from Mr. Ramotowski. You 
said that they get a border crossing card that is also a B1/B2, 
and then you went on to say which allows them to travel 
throughout the United States. Could you help clarify that? 
Because I don't think that is accurate. Maybe I just heard it 
wrong.
    Mr. Ramotowski. Yes, and I will also defer to my colleague 
in CBP regarding the admission process. But in Mexico, the 
border crossing card that we issue is a border crossing card 
and B1/B2 visa, and it replaces the B1/B2 visa in Mexico and is 
only issued in that country. So when they apply for admission 
to CBP, they can be admitted on the card, the B1/B2 border 
crossing card for travel anywhere in the Country.
    Mr. Chaffetz. My understanding was when you get a border 
crossing card you are limited to entry to certain miles, 
depending on which State you are involved and engaged in. You 
are telling me that is not the case?
    Mr. Ramotowski. That is not the case.
    Mr. Chaffetz. Can you help clarify this, Mr. Wagner? 
Because that doesn't sound right to me.
    Mr. Wagner. Yes. We can admit them, CBP can admit them into 
that border zone under certain conditions; they can stay up to 
30 days, they can't work, but they can travel within that 
border zone, which is different by State, as you mentioned. If 
they want to go beyond that zone, they can use the B1/B2 aspect 
of that visa and apply with CBP to go beyond that zone. We will 
bring them into a secondary inspection environment, we will 
collect their fingerprints, we will match them up against what 
Department of State had taken when they issued the visa, we 
will run, of course, the fingerprints against a watch list, we 
will do additional database queries, we will ask them for ties 
to Mexico to demonstrate that they intend to return to Mexico, 
and if there are no risk factors present or if we don't feel 
there are any factors that would call into question that they 
don't intend to honor the terms of that admission, we can admit 
them for up to six months to anywhere in the United States on 
the B1/B2 aspect. Pretty much the exact same process as if that 
person had gotten onboard a plane and flown into an airport in 
the United States, the same type of inspection process and we 
would do the same type of admission, and we can admit them to 
any part of the United States.
    Now, we are going to question them about where they are 
going, why they are going, how long they intend to stay, what 
they intend to do there, and it is the answers to those types 
of questions which we factor in with the ties that they are 
demonstrating to make that judgment about the person, that they 
don't intend to not comply with the terms of that.
    Mr. Chaffetz. I will now recognize the gentleman from 
Massachusetts, Mr. Lynch, for a generous five minutes.
    Mr. Lynch. Thank you, Mr. Chairman, I appreciate that.
    I want to thank the witnesses for coming forward and 
helping the committee with its work.
    Mr. Woods, I have to say, as a threshold matter, though, 
the lack of information coming to Congress is just inexcusable. 
This was our request to you for 2009 data. We are, up to now, 
debating comprehensive immigration reform, okay, which 
prospectively would place great responsibility on your 
Department, and for you to just abjectly refuse to give 
information from 2009--this isn't top secret information, this 
is 2009 data--so that we can make a good decision is just 
inexcusable. And maybe DHS is being cute; maybe they think this 
is helping them. But from my side of the dais, it gives me low 
confidence in the information you are providing, number one; it 
gives me low confidence in reliability of the responsibility 
that we might give you in comprehensive immigration reform; it 
gives me low confidence in your ability to carry out those 
functions; and it really hurts the whole idea of comprehensive 
immigration reform, because you all will be handling it, and 
you can't even give us data from 2009 so that we can make a 
good decision. You are hurting this process.
    I know it is not you individually, but it is the people who 
sent you here. And if they think they are being cute by 
stonewalling Congress, you are hurting your cause. If you 
really believe in immigration reform, you couldn't do worse to 
throw a monkey wrench into this whole process, because now we 
don't trust you. We don't trust you with the responsibility. 
You can't even give us 2009 data that was asked for six months 
ago. I mean, give me a break. Give me a break. So that is what 
we are faced with.
    And, you know, I am the ranking Democrat on the 
Subcommittee on the Federal Workforce, and I know how hard, I 
know how hard the Federal employees at the Department of 
Homeland Security are working, the rank and file, the Border 
Patrol people, the ICE people. I know how hard they are 
working; we work with them on a daily basis in my office. This 
has become a huge responsibility for the average member of 
Congress, this whole immigration piece. I know how hard they 
are working. And by stonewalling and giving us this, zero; 
waiting since August for some basic information from 2009, we 
get nothing, we get we'll get back to you later. You make all 
those hardworking employees look bad. You make them look bad, 
and that is disgraceful because I know how hard they are 
working. It is not indicative of the work that they are doing.
    I just think that you owe us better, and we are not getting 
it and there will be consequences. There will be consequences. 
I wouldn't doubt any member of Congress who says I don't want 
to engage in serious and deliberate immigration reform because 
the people who are required to carry it out are so incompetent 
that they can't give us data from 2009; how can we trust them? 
That is going to be the response. And how do I respond to that, 
as someone who thinks that comprehensive immigration reform is 
necessary? You are hurting our cause.
    Mr. Osuna, can I ask you how long does it take if someone 
is detained today--I have this data here that tells me there 
are about 348,000 cases that are pending. And if I go back last 
year and the year before, it seems like the backlog is getting 
bigger and bigger by like 30,000 cases every year, so we are 
burying ourselves. I appreciate your efforts here and I 
understand the workload on individual judges, but I am just 
trying to get a sense of what does that mean for someone who is 
detained today? When could they expect their case to be heard, 
what is the wait time on that?
    Mr. Osuna. Congressman, detained cases, as I mentioned, are 
our highest priority. I look at the immigration court system as 
a little bit of a two-track system right now, because we do 
treat the detained caseload quite differently than the non-
detained caseload. The nature of the cases are often very 
different. The nature of the cases in the detained context, you 
see fewer applications for relief because, as I mentioned, many 
of those individuals have criminal convictions, so they are not 
eligible for a lot of relief from removal. So they are put on a 
separate track; they tend to move very, very quickly. I believe 
that the numbers that we have are that about 90 percent of 
those cases are adjudicated within about a month of the person 
being detained.
    Mr. Lynch. For which category of cases?
    Mr. Osuna. For the detained caseload. Somebody detained 
today can expect to have a hearing before an immigration judge 
in roughly about a few weeks, about a month. I will verify 
those numbers and get you some more exact numbers, but they 
tend to move very, very quickly. There are cases that go beyond 
that. Sometimes cases tend to be a little bit more complicated 
than they first seem. But generally speaking, when you are 
talking about people detained at Eloy, at the Port Isabel----
    Mr. Lynch. Okay, let's go to a non-detained individual.
    Mr. Osuna. They tend to move a lot slower, and it varies 
significantly from court to court, so I can't give you an 
average number of how long somebody would have to wait.
    Mr. Lynch. Can you get it to me?
    Mr. Osuna. We can get you some more information on that, 
yes, sir.
    Mr. Lynch. That would be helpful, because these are big 
numbers and they are getting bigger every year, so at some 
point that has to affect the time frame, right?
    Mr. Osuna. The time frame, yes. And the time frame does 
depend on a number of factors: Is the person represented or are 
they not represented by a lawyer? Are they applying for relief? 
Is it a complicated asylum application or is it a more 
straightforward what we call cancellation of removal 
application?
    Mr. Lynch. All right. Well, since I have to wait for the 
information anyway, why don't we try to break down what the 
categories are for me and for the committee, and tell me what 
the wait time for those individual categories are? Would that 
be okay?
    Mr. Osuna. We will get you that information, yes, sir.
    Mr. Lynch. That will be great. Thank you, Mr. Osuna.
    Mr. Chairman, I appreciate the indulgence.
    Mr. Chaffetz. And thank you for the comments. You can see 
this is a bipartisan issue. We have been focused on Homeland 
Security, but let me also point out that this is also pointed 
to the Department of Justice. For Mr. Lynch here, on August 
26th I sent a letter to the Department of Justice asking this 
very question that the gentleman from Massachusetts is asking. 
We have had no response. Please provide all documents 
describing the average length of time and longest length of 
time for a notice to appear before an immigration judge for an 
asylum proceeding. I have had no response. So when you say you 
are going to get back to us, and I asked for that very question 
that Mr. Lynch just asked, and I asked for that in August and 
it is now November and you haven't provided this. When will you 
provide that information to this committee?
    Mr. Osuna. Mr. Chairman, I believe we provided some 
responses.
    Mr. Chaffetz. Some, but not to that one.
    Mr. Osuna. We will provide you with that information as 
quickly as we can.
    Mr. Chaffetz. No. I want a date from you personally. I want 
a commitment from you.
    Mr. Osuna. We can provide you that information in the next 
few weeks.
    Mr. Chaffetz. You pick the date. You pick the date. You 
tell me.
    Mr. Osuna. I think we can get that information fairly 
quickly, so let me get you----
    Mr. Chaffetz. No, I want you to give me a date. I want you 
to give me a date. What is reasonable? I asked in August and 
you have had a running start at this.
    Mr. Osuna. We will get you that information as quickly as 
we can. I am not trying to----
    Mr. Chaffetz. It does, it sounds like you are playing games 
with me. How about December 10th? Is that reasonable?
    Mr. Osuna. We will do our best to get you that information 
by December 10th.
    Mr. Chaffetz. Okay.
    Mr. Lynch, do you care to weigh in on this?
    Mr. Lynch. No, let's try for December 10th. That's as good 
a day as any. Thank you.
    Mr. Chaffetz. Thank you.
    Thank you. We will now recognize the gentleman from 
Vermont, Mr. Welch.
    Oh, I think we are going to actually recognize Ms. Kelly 
first. My apologies.
    Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chairman.
    Mr. Ramotowski, according to your written testimony, nearly 
5.8 million B1 and B2 visas were issued by the State 
Department's Bureau of Affairs in 2013. While that number may 
seem small when compared to the 1 million travelers who cross 
our Nation's borders each day, it is still a significant 
number. I would like to discuss the steps that the Department 
takes to prevent and detect public safety and national security 
threats at the beginning of the process, when the applicant 
applies for a B1 or B2 visa. According to your testimony, after 
an applicant submits their B visa application, their 
biographical and biometric information is checked against 
several databases to search for disqualifying information. Just 
how many database does a consular's office query on a given 
application? You can just give me a ballpark if you don't know 
the exact.
    Mr. Ramotowski. I would estimate that at least six major 
databases. And those databases draw information from the whole 
constellation of law enforcement and intelligence agencies 
across the United States Government. So it is not really a 
question of how many databases, but where is the data coming 
from. And we share all of our visa application data with law 
enforcement and intelligence agencies, and we, in turn, draw 
from them information about individuals who may represent a 
national security threat, either for criminal purposes or 
terrorism or other national security concerns.
    In addition to that, we check the applicant's fingerprints 
against both the FBI and DHS fingerprint databases, and we have 
the world's largest facial recognition program, where we screen 
the applicant's photograph against photographs of terrorists 
provided by the FBI and also our entire database of prior visa 
applicants to see if perhaps we have a case of identity fraud, 
an individual who may have applied under a different name 
before.
    So we have an extensive series of checks to help our 
consular officers make the best possible decisions.
    Ms. Kelly. Now, are these all State-owned or controlled 
databases?
    Mr. Ramotowski. No. Many of the databases belong to partner 
agencies, such as Homeland Security, the FBI, and the 
intelligence community. As I noted in my remarks, just in June 
of this year we started a major new security vetting program in 
cooperation with the National Counterterrorism Center, which is 
the U.S. Government's central coordination point for terrorism 
information, and visa cases are now being sent for screening 
there. And they have the ability to check very highly 
classified materials and send an alert to the consular officer 
in advance so that an individual who is a potential threat 
would not be issued a visa.
    Ms. Kelly. So each separate entity is responsible for 
maintaining and updating their own database?
    Mr. Ramotowski. That is correct.
    Ms. Kelly. Who has the responsibility for ensuring 
interoperability and that your consular officers have the 
access they need?
    Mr. Ramotowski. Well, we work, again, with our partner 
agencies on that. There are interagency committees that work to 
ensure that the databases can talk to each other, that they are 
not sent down for maintenance at a critical time when lots of 
applicants are applying for visas or arriving at airports. We 
get very good cooperation from our partners in that respect.
    Ms. Kelly. Is this type of vetting any less rigorous for 
applicants for border crossing cards?
    Mr. Ramotowski. No, it is absolutely the same for all 
applicants, whether you are applying for a B visa or a border 
crossing card combined with a B visa or other types of U.S. 
visas.
    Ms. Kelly. Okay. According to your testimony, after an 
applicant submits their application, a consular officer must 
interview them. I think we can all agree that the interview 
serves an important role in the vetting process. However, the 
Department has recently unveiled an Interview Waiver Pilot 
Program, which waives the requirement of in-person interviews 
for certain applicants renewing their visas and whose 
biometrics have already been collected. Can you explain how the 
Department can assure us that it will still be able to identify 
and deny high-risk applicants?
    Mr. Ramotowski. Yes, certainly. The Interview Waiver Pilot 
Program was developed in coordination with the Department of 
Homeland Security, both the Secretary of State and the 
Secretary of Homeland Security signed off on it, and what it 
does is it allows the interview to be waived for low-risk 
applicants who are seeking to renew a visitor visa. All of 
those applicants, no matter how many times they are renewing a 
visa, are checked through all of the databases that I mentioned 
earlier; they are all checked. The only thing that would be 
waived would be the interview if nothing unusual comes out of 
the actual database checks. And this benefits travelers who 
visit this Country frequently, respect our immigration laws, 
often are supporting U.S. businesses, and we don't really need 
to use our limited resources--and an interview is our most 
labor-intensive and expensive resource--on that group of 
applicants. We would rather have our officers talk to first-
time applicants and anybody who has a database issue.
    Ms. Kelly. Thank you. My time is up.
    I yield back.
    Mr. Chaffetz. Thank you.
    We will now recognize the gentleman from Vermont, Mr. 
Welch, for five minutes.
    Mr. Welch. Thank you, Mr. Chairman. Thank you for this 
hearing.
    I live, of course, in Vermont, and our issues are mainly on 
the northern border, and we are very fortunate in Vermont to 
have excellent relations with our Canadian friends.
    Mr. Wagner, I know you came up to Vermont and visited with 
Senator Sanders and members of my staff. I appreciate you doing 
that. I wanted to ask you a little bit about the Nexus card.
    As you know, my colleagues, that is similar to the border 
crossing card and it allows pre-screened Canadian and U.S. 
travelers expedited processing in designated processing lanes. 
Applicants who are approved get issued a photo ID and an RFID 
chip, and they each pay $50. It is non-refundable, so this is a 
self-financed program. And it is incredibly important to 
Vermont because the Canadian impact on our economy is enormous. 
We hosted over 2.5 million Canadian visitors in 2011. Canadian 
visits accounted for 200 million to our economy and the trade 
across our border contributes to about 19,300 jobs.
    We are hearing anecdotal stories about wait times that I 
think are detrimental to the economic back and forth between 
Canada and Vermont. Some of our ski areas are dependent for 50 
percent of their visits on Canadian visitors. We don't have 
specific wait time reports, that is not something that the CBP 
does, but we are hearing anecdotally that a lot of folks are 
waiting from 30 minutes to an hour.
    So this program, the Nexus program, can be a win-win, 
because obviously it expedites the free flow and the quick 
passage. Number two, it reduces the demand on your folks, who 
have a lot to do and little time to do it. So we need to get 
those Nexus lanes opened.
    I want to ask you, Mr. Wagner specific suggestions do you 
have that would help us to get those Nexus lanes open and 
operating more effectively for Vermonters and for Canadian 
visitors?
    Mr. Wagner. Thank you. Nexus is one of the key ways we 
manage the traffic on the border, along with the Sentry program 
and the Global Entry program at the airports, and, like you 
mentioned, we know more about those people, we can take the 
time to go through a very thorough risk assessment of the 
people, including their biometrics, and when they do then come 
to the border, we can expedite the inspection process to some 
extent and we can give them, where available, the designated or 
dedicated infrastructure for them to use by that dedicated 
lane.
    So really it is a matter of us marketing it and getting the 
information out and being available to do the application 
approvals and the interviews and get people enrolled in the 
program. We would be more than happy to work with your staff 
locally to come up with ways to market it better and come up 
with ways to be more available to get it done, but then it just 
boils down to what is the percentage of people with the Nexus 
cards using that port of entry, and can we afford to dedicate 
the infrastructure just to their exclusive use without really 
impacting too bad the non-members.
    Mr. Welch. I mean, that is a practical problem. There is no 
value in having a Nexus card if you have to stay in the 
standard line. And I know you have resource issues, but there 
must be some suggestions you might have to let folks with the 
Nexus card be processed more quickly. Because if they have to 
stand in the regular line, they are not going to get the card.
    Mr. Wagner. Absolutely. We have to get a higher percentage 
of people enrolled, so we have to find where those people are 
and get them those marketing materials and get them that 
information, get them to understand the benefit that they get. 
The more people enrolled in Nexus is better for us. We look at 
a place like San Ysidro, our busiest border crossing on the 
southwest border. We do 35 to 40 percent of that entire traffic 
through those Sentry lanes. All the time we save we can 
reinvest to doing a more thorough inspection on everyone else, 
so it is in our benefit to do it. So I really look forward to 
working with you.
    Mr. Welch. Well, we are on the same page, but we would like 
to make that program work. The folks who have the card are 
starting to get a little frustrated. That is detrimental to our 
businesses and to them. So I would welcome your very concrete 
suggestions on what you can do, what we can do to make that 
Nexus program more widely used and then more efficiently 
administered.
    Mr. Wagner. Absolutely, and we absolutely look forward to 
working with you on that.
    Mr. Welch. Well, can you get back to me with some concrete 
suggestions about what we can do and what help you might need 
from us, what things you can do administratively? I know your 
folks are working hard. We appreciate that.
    Mr. Wagner. Yes.
    Mr. Welch. But we have to make this thing work.
    Mr. Wagner. Absolutely agree. We have about 875,000 people 
enrolled in Nexus. It is a key way we manage the border and how 
we segregate the traffic at the points of entry between the 
trusted traveler status, someone with just an RFID-enabled 
document versus everybody else, much like a toll booth, where 
you have Easy Pass, exact change, and everyone else. By 
segregating that traffic by virtue of the vetting status or the 
facilitative nature of their document, it just increases the 
throughput through those ports of entry.
    Mr. Welch. My time is up. I yield back. I thank you and I 
look forward to hearing from you.
    Mr. Wagner. I will get back to you.
    Mr. Welch. Thank you.
    Mr. Chaffetz. Thank you.
    We now recognize the gentlewoman from New Mexico for a very 
generous five minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. And I 
appreciate the chairman bringing this issue to the Oversight 
Committee's subcommittee, and I appreciate the panelists for 
being here today.
    I am interested in both issues, the accountability and 
security issues, but balancing that clearly with the intent of 
the business and tourist visas to make sure that folks who 
should be crossing can cross and that we can reap the benefits 
of that relationship. Specifically, I understand that this year 
the U.S. Customs and Border Protection Agency submitted a rule 
change that would extend the border commercial zone in New 
Mexico from 25 to 55 miles.
    Now, a New Mexico State University study estimates that 
extending the border commercial zone from 25 miles to 55 miles 
could generate 51 million in new sales for New Mexico 
businesses, potentially create 343 jobs, and increase tax 
revenue by 2.57 million.
    Now, we are one of the poorest States in the Country. Every 
single new job and every single new dollar of additional 
revenue, whether it is in my district or somewhere else in the 
State, is vital. Additionally, border community families also 
benefit, since this allows them to travel further distances to 
visit loved ones and family.
    Mr. Wagner, can you talk to me a little bit about the 
challenges your agency faces in balancing the quick travel and 
commerce, which I see as a clear benefit to a State like New 
Mexico, the public safety and security issues, and the--well, I 
really want you to--I don't know how much time I have to talk 
about the prudent balance of the taxpayer dollars here, but we 
also want you to be accountable when you talk to us about those 
security measures.
    Mr. Wagner. Well, thank you for the question. That is 
exactly it, the challenge before us. The vast majority of 
travelers we encounter at the ports of entry are honest law-
abiding returning citizens to the U.S. or visitors to the 
United States for a variety of purposes, and our role is to 
ferret out those few unlawful people or people with bad 
intentions coming in and prevent that from happening. So there 
are a variety of approaches we take to be able to do this and, 
like you mentioned, without creating the gridlock and shutting 
down the port of entry so people can't come visit those areas 
and can't come work and study or even return home from a trip 
abroad.
    So it is a matter of doing a lot of, say, pre-departure 
analysis and vetting and getting secure credentials issued to 
people either via border crossing card or a passport card or 
one of our trusted traveler programs; having confidence in that 
program that you have done a thorough risk assessment of the 
person, the biographical vetting, the biometric vetting, the 
interview with someone; having a facilitative type technology 
in place at the border so we can readily identify that person 
and match them up that they are the true document holder and 
that that document is valid. So when we read those RFID-enabled 
cards at the border, one thing we do on our systems queries, we 
are doing all of our law enforcement queries; any previous 
violations, any wants and warrants, any terrorist database 
hits, but also validating against the originating source, so we 
will ping Department of State to say is this a valid border 
crossing card, is this a valid U.S. passport card. Up will come 
the picture that Department of State took when they issued that 
card, and we will be able to compare that picture against the 
person.
    Ms. Lujan Grisham. So some of the new initiatives will 
clearly provide those benefits so that you can balance that. 
But given the problems in getting them to be fully materialized 
or implemented, do you think that your agency sometimes makes 
tradeoffs to balance these priorities?
    Mr. Wagner. Well, it is a balance because we recognize the 
support to the economy that CBP has, and the more legitimate 
people we can get in, the better it is for the Country; the 
more jobs it creates, the more travel and tourism is good. But 
it is also very damaging if we let the wrong person in, so we 
have to make sure we are ferreting out those people. But these 
systems are in place today with the RFID. What we are working 
on now is segregating that traffic by virtue of a risk 
assessment status so a Sentry lane on the southwest border; 
someone with just a facilitative document with the RFID chip, 
but not necessarily the preapproval or pre-vetting that has 
been done, and giving them a section; and then putting everyone 
else in the remainder lanes. And this increases the throughput 
of that overall port of entry because of the less time we need 
to spend with each one of those.
    Ms. Lujan Grisham. And, Mr. Wagner, I very much appreciate 
the in-depth explanation of the streamlining of the processes 
and a reassurance that that streamlining and those efforts 
doesn't in any way minimize the security or the accountability. 
But I think it points to a broader issue for me that I think is 
important about this hearing, which is we know that there are 
economic benefits. Looking at New Mexico as an example, I can 
only imagine the rule change for broadening those commercial 
zones around the Country, but really talking about 
comprehensive immigration reform so that this becomes a 
priority, that all of these issues at the border are a 
priority; that we are figuring out a way to deal with the 11 
million, we are bringing in incredible revenue, we are 
affecting the national debt, and we are finally, instead of 
incrementally looking at one issue from another and balancing 
and having tradeoffs in this design, maybe it is time that we 
focus on immigration reform and do that in a comprehensive 
manner so we can get beyond these kinds of hearings and 
debates.
    Mr. Chaffetz. We now recognize the gentlewoman from 
California, Ms. Speier, for five minutes.
    Ms. Speier. Mr. Chairman, thank you. I am pretty perplexed, 
as are some of my colleagues, about the inability to get 
straight answers.
    Let me ask this. During the subcommittee hearing in June, a 
question was asked about whether Customs and Border Protection 
monitors cardholders once they enter the U.S., and Customs and 
Border Protection official responded that the agency does not. 
So, Mr. Wagner, would it be safe to say that the border 
crossing card operates on a sort of honor system, as some might 
suggest, or is that an oversimplification?
    Mr. Wagner. We do not monitor people once they are admitted 
into the United States, as far as from the Customs and Border 
Protection perspective. Now, before we admit them we do a 
series of risk assessments and evaluations of that person, and 
it is a judgment call whether or not, in our opinion, that they 
intend to honor the terms of that admission. So we will look at 
the database queries; we will look for previous violations; we 
will ask people about the ties to their home country; we will 
ask them about where they are going, where they are staying, 
what they are going to do here. If they are flying in, do they 
have a return ticket home. If they are driving across the 
border, what is in the trunk of their car; is it just a 
suitcase that would be appropriate for a one-week trip, or are 
there household possessions in there? But it is through this 
questioning and this analysis and this review that we make a 
judgment determination on the person whether or not they intend 
to comply with the terms of that admission. But we do not 
follow them around the U.S. to see that they actually go and do 
the things. We don't do that.
    Ms. Speier. So the border crossing cards, though, are 
typically restricted to 25, 55, or 75 miles from the border, 
depending on the State, correct?
    Mr. Wagner. Yes, that is correct.
    Ms. Speier. Okay. So we put this so-called restriction on 
it, but we don't monitor it. So if they violate it, we wouldn't 
know. Nor do we care?
    Mr. Wagner. Absolutely we care.
    Ms. Speier. Well, why do we have a restriction that we 
don't enforce? It is bogus.
    Mr. Wagner. We enforce it through--we have border patrol 
checkpoints at the top end of those zones, which are on the 
highways, which then help restrict and we will ask people for 
their documentation, their approvals to proceed inland, into 
the U.S. beyond those border zones. But it is the same as if 
someone flew into one of the airports. We ask the same type of 
risk assessment questions; the purpose and intent of their 
travel, how long they intend to stay here, and do they have the 
ties back to their home that we feel they don't intend to 
abandon. It is a similar process to that.
    Ms. Speier. But from my perspective, if we are going to fix 
immigration reform and we are serious about it, we have to do 
something about monitoring those that are using border crossing 
cards, those that are here on tourist visas, or otherwise it is 
just a sieve.
    Mr. Wagner. Well, what you mean by monitoring, while they 
are here and what they are dong, or at the point of their 
departure from the U.S., where we then record it and match it 
up with the inbound record to see if they then did overstay? I 
am a little confused about the question.
    Ms. Speier. Well, that wasn't a question, that was just a 
statement.
    Mr. Wagner and Mr. Woods, I would like to ask whether the 
Department undertakes continuous monitoring of any class of 
visa holder admitted to the United States.
    Mr. Woods. There are several monitoring ways of non-
immigrant visas. Like I said in my opening remarks, in ICE, we 
currently vet students who are in the United States under the 
E, F, J, and M categories for any derogatory information 
because they are admitted for duration of status; they don't 
get six months or 30 days, they get duration of status, as long 
as they maintain their status as a student. So we currently vet 
those individuals through the intelligence community and other 
DHS databases to see if there is any derogatory information.
    Additionally, in CBP all other visa holders are vetted 
daily through their super query process to determine derogatory 
information. So if any information is raised, it is forwarded 
to the appropriate agency, mostly to ICE, and we enforce the 
laws, and when we identify they have violated their status or 
has new derogatory information, it is placed under 
investigation to determine whether they are allowed to remain 
in the United States.
    Ms. Speier. Mr. Ramotowski, how susceptible are border 
crossing cards to document fraud?
    Mr. Ramotowski. The Department of State has been 
continuously improving the border crossing card over the years, 
and early next year the fourth version of the card will be 
produced, which has state-of-the-art features to prevent 
counterfeiting or misuse. Border crossing cards, as I 
mentioned, are adjudicated in exactly the same way that a B 
visa is adjudicated elsewhere in the world because it is a 
combined border crossing card and B1/B2 visa, so our officers 
are trained to detect fraudulent documents, they are trained to 
look for discrepancies in a visa applicant's story, they are 
trained----
    Ms. Speier. I understand that you do all those things, but 
I am just asking a fundamental question: How often are they 
susceptible to fraud? How often do you come across fraudulent 
border crossing cards?
    Mr. Ramotowski. Actually, fraudulently altered cards, it is 
not very often. I don't have the exact figures on that, but it 
is not common. More common would be an imposter trying to use 
it.
    Ms. Speier. All right.
    I yield back.
    Mr. Chaffetz. I thank the gentlewoman. My understanding is 
that in fiscal year 2009, more than 13,000 fraudulent border 
crossing cards and 4500 fraudulent passports were intercepted 
by Customs and Border Patrol.
    Did the gentlewoman have any other additional comments?
    Ms. Speier. Well, I guess in the theme of things, thank 
you, Mr. Chairman, for answering my question that I would have 
assumed that the witnesses could have answered. I guess that 
number to me seems relevant. Now, how many border crossing 
cards do we actually issue a year I guess is the next question. 
Do you happen to know that?
    Mr. Ramotowski. In Mexico, the total number for fiscal year 
2013 was 1,283,319, which is a 14.1 percent drop from the year 
before.
    Ms. Speier. All right. So it seems like, Mr. Chairman, that 
is not a significant number when there are 1 million, but the 
point that that begs, of course, is that we have a million of 
these cards issued and there is virtually no monitoring going 
on.
    I yield back.
    Mr. Chaffetz. Well, I thank the gentlewoman, and to follow 
up, if she will further yield, my concern is we have nearly 9 
million cards that are currently valid. When you get a border 
crossing card, it is valid for 10 years, and if you add up year 
by year and assume that each one is valid for 10 years, we have 
close to 9 million of these; and that is the concern. It is the 
number one visa that we issue, is this category. In fact, it 
accounts, I believe, for more than 50 percent of all the visas 
we give out fall into this B1/B2, and the border crossing card 
we basically hand them out by the millions.
    All right, I would now like to recognize myself.
    Let's go back to Mr. Ramotowski. The one and only document 
that we ask in order to get a border crossing card from 
somebody who is from Mexico is a passport, a Mexican passport.
    Mr. Ramotowski. Correct.
    Mr. Chaffetz. What do you do to validate that that is a 
real Mexican passport?
    Mr. Ramotowski. If our interviewing officer has any 
suspicions about the validity of the passport, it can be sent 
to our Fraud Prevention Office----
    Mr. Chaffetz. Do you check any of the numbers against any 
sort of database?
    Mr. Ramotowski. Mexican passport numbers are not in our 
database.
    Mr. Chaffetz. We don't query against a Mexican database of 
any sort?
    Mr. Ramotowski. We are working to expand our----
    Mr. Chaffetz. Sorry, just yes or no. I have to move faster 
here.
    Mr. Ramotowski. We don't query against directly against a 
Mexican passport database.
    Mr. Chaffetz. So the authenticity is just up to the 
individual in what you told me is three to four minutes of a 
review. They are looking at this passport and they are just 
making a physical assessment, yeah, looks valid.
    Mr. Ramotowski. If they have any doubt at all, Mr. 
Chairman, they can refer it to our fraud prevention 
specialists, who will take all the time that they need----
    Mr. Chaffetz. What cooperation do we get from the Mexican 
government to validate their passports?
    Mr. Ramotowski. In my experience, we get very good 
cooperation with Mexican authorities.
    Mr. Chaffetz. But what do they do other than being nice? I 
am sure they are very nice.
    Mr. Ramotowski. They provide information as to whether the 
passport is a valid Mexican document----
    Mr. Chaffetz. How do they do that? If they are not querying 
a database, how do you do that?
    Mr. Ramotowski. The Fraud Prevention Office consults with 
Mexican passport offices in the major cities of Mexico----
    Mr. Chaffetz. I would love to follow up with you on that, 
because I am not convinced that we have a process that works in 
that category. I worry about that.
    If somebody here maybe gets a border crossing card, comes 
and commits a crime, let's say it is a DUI in Utah, would that 
information go into a database and do they query that? Are they 
matching the records? I guess what I am worried about is that 
we have a database of fingerprints. How do they match those two 
up?
    Mr. Woods, you are shaking your head yes. Would you care to 
tackle that?
    Mr. Woods. If someone is arrested in Utah for DUI and they 
have a border crossing card, besides being out of status and 
violating their 55 mile or 75 mile radius from the border, they 
would be either A, through secure communities, identified to 
ICE for removal, and depending on how their criminal case goes 
and the conviction, maybe use the conviction and remove them as 
a criminal alien, depending, or we could move them 
administratively as a violator of the----
    Mr. Chaffetz. Okay, let's go to those administrative 
violations.
    Mr. Woods. Yes.
    Mr. Chaffetz. And the number I have is a few years old; I 
haven't gotten an updated one. How many ``fugitive aliens'' do 
we have? That was a category that Homeland Security used some 
time ago. Do you still have that category or did you redefine 
it, and how many people fall into that category?
    Mr. Woods. Well, a fugitive alien is a person who has 
already been put in removal proceedings----
    Mr. Chaffetz. But has not left the Country.
    Mr. Woods. Has been ordered deported from the United 
States.
    Mr. Chaffetz. Yes.
    Mr. Woods. By an immigration judge and has not left the 
Country. I don't know the exact number today. I know, like you 
said, a few years ago it was around the 400,000 figure. I think 
it is a lot lower today, but I could get back to you with the 
exact number.
    Mr. Chaffetz. Can you give me a date?
    Mr. Woods. I can give you probably that number within two 
weeks.
    Mr. Chaffetz. I appreciate that. There is some definitive 
answer. I appreciate it. Thank you.
    What would cause somebody to lose their border crossing 
card? Is there any violation? What is the standard by which 
somebody would lose their border crossing card? I guess that is 
for you, Mr. Ramotowski.
    Mr. Ramotowski. At the time of application, if the officer 
has any doubt----
    Mr. Chaffetz. No, no, no. No, no, no. They have been issued 
one.
    Mr. Ramotowski. Okay.
    Mr. Chaffetz. It is valid for 10 years.
    Mr. Ramotowski. It is valid for 10 years.
    Mr. Chaffetz. When, how do they lose----
    Mr. Ramotowski. If the Department becomes aware, as Mr. 
Woods stated, of immigration violations or any criminal 
activity that that individual may have----
    Mr. Chaffetz. If you stay more than 30 days, do you lose 
your border crossing card?
    Mr. Ramotowski. If we become aware of it and you violate 
immigration law, yes, we will revoke that card.
    Mr. Chaffetz. And part of my question is how many have you 
revoked. Again, we ask for stats and don't necessarily have 
them.
    Mr. Ramotowski. Yes. I will have to get back to you.
    Mr. Chaffetz. I would love to know how many have been 
revoked. I guess what I am not convinced is that systems and 
computers talk to each other to the point that we actually know 
that this is happening. Somebody goes beyond their threshold, 
whether it be in time or in distance. To point Ms. Speier, what 
kind of enforcement there is.
    Now that we have--and I believe the number is fairly 
significant, what are we doing to pursue those people that have 
violated that. Mr. Woods, ICE has very limited resources. You 
have hundreds of thousands of fugitive aliens, hundreds of 
thousands of them. And then you have people on the list of 
people who have violated their border crossing cards. How do 
you pursue them? How many people do you have, for instance, in 
the ICE Overstay Analysis Unit, how many people are in that 
group and what sort of resources do you have to pursue and 
actually deport these people?
    Mr. Woods. Currently, between Federal employees and 
contract analysts, we have approximately 68 individuals of 
Federal employees and another 50 contract analysts who analyze 
the data that is in ADIS to determine the overstay records and 
identify and prioritize them and validate those numbers.
    Mr. Chaffetz. You have hundreds of thousands of people that 
you are trying to track down, and you have just about 100 that 
are pursuing them?
    Mr. Woods. These are the individuals that look at the data; 
these are not the individuals that actually track them down. 
They look at the data and prioritize those cases and then send 
them over to our Investigations Branch, which we have 
approximately 6700 special agents in the field and a small 
number of them are dedicated----
    Mr. Chaffetz. I am sorry, how many in the field?
    Mr. Woods. Sixty-seven hundred.
    Mr. Chaffetz. Okay.
    Mr. Woods. And we have a number of them that are dedicated 
to the enforcement of overstay violations. But we take these 
numbers----
    Mr. Chaffetz. How many are pursuing the overstays?
    Mr. Woods. Percentagewise, approximately 3 to 5 percent of 
the programmatic area is spent on actual overstays.
    Mr. Chaffetz. So let's assume it is 5 percent of 6500 are 
pursuing hundreds of thousands of people.
    You know, I am one that wants to fix legal immigration. We 
can make the fence as big and wide and far as you want, but if 
you don't fix legal immigration it is never, ever going to 
work. Most people, as you all have said and I believe, that 
come here, they come here legally, lawfully; they are good, 
honest, decent people. But what I worry about is you have 
fugitive aliens by the hundreds of thousands. You have people 
who aren't willing to play by the rules. In fact, they break 
the rules, but there is no consequence; there is no follow-
through. And, again, a lot of good men and women who are out 
there trying to do it, but they just feel overwhelmed by the 
process. And then when somebody comes and claims asylum, for 
instance, and then they get a court date in 2020, I mean, we 
don't really know who this person is, whether it is valid or 
not.
    Last question, then I will yield, because I have gone way 
passed. When somebody goes through the process and their asylum 
has been denied, who has primary responsibility to find that 
person and make sure that they actually leave the Country?
    Mr. Ramotowski. ICE does.
    Mr. Chaffetz. Do you do that? Because your field agents 
have told me they don't.
    Mr. Woods. It depends on the case. If the person is in 
custody and detained at the time that they are ordered removed, 
they go into enforcement removal operations for removal from 
the United States. And depending upon the issuance of a travel 
document to remove them, their length of stay in custody or 
whether there is an alternative detention method until they are 
properly removed.
    Mr. Chaffetz. I want to make sure, when you get back to me 
by, say, the end of the month--you said two weeks, we will be a 
little lenient there, with Thanksgiving and all--the reality 
is--and I have talked to agents on the ground in Arizona, and 
they say this is a loophole, that they actually don't have 
primary responsibility for going out and pursuing those that 
don't qualify for asylum. If you can clarify this for me. 
Again, talking to people who are wearing badges and wearing 
uniforms, but I want to clarify from the Department and the 
agency. Perhaps they needed some education and I can get back 
to them. Help me clarify. I want to make sure that particularly 
with the asylum, that this is also the case.
    Mr. Woods. If an individual is before an immigration judge, 
they are under the docket control of a deportation officer. 
That deportation officer tracks that case to its final 
conclusion.
    Mr. Chaffetz. But my understanding is not everybody shows 
up for that asylum hearing. They could show up in 2013, they 
get assigned a time in 2020. I don't think I can remember what 
I am supposed to do on which day and which time in 2020. They 
may have easily moved or gone to a different place. They just 
showed up in this Country. So the ability for them to even 
remember, be served noticed, there are undoubtedly by the 
thousands of people who don't get notice, don't remember, and 
should be deported, but we have lost these people, there is no 
track of them. We don't know where they are, what they are 
doing, correct?
    Mr. Woods. If those individuals are outside of custody and 
not adhering to some sort of alternative detention method, 
whether it would be an anklet bracelet or whatever, no, we 
don't track their movements. But they do have reporting 
requirements. If they fail to report to their deportation 
officer, they are looked for and removed.
    Mr. Chaffetz. And I help you say that with a little smile 
on your face, because the reality is----
    Mr. Woods. Honestly, there has to be a prioritization going 
on here. You want to remove the person who is the heinous 
criminal, that is the aggravated felon. If you have an 
individual with no criminal history, with no other identifiers 
except that they did claim asylum, those persons do fall to the 
lowest priority and those people are not sought after as 
rigorously as someone who is an aggravated felon that may be on 
the street, that needs to be brought back into custody and 
removed from the United States. So like I said from the 
beginning, we look at national security and public safety first 
and we prioritize those cases. Once we prioritize those cases, 
we use our infinite resources to determine who is of highest 
priority and go after those individuals and make sure they are 
removed. Last year we removed 400,000 people from the United 
States based on our appropriations, and we made sure those 
individuals were of the highest classifications to make this 
Country safer.
    Mr. Chaffetz. And I appreciate that. You have to prioritize 
things, there is no doubt in my mind, but I worry that this is 
the loophole, this is the problem.
    And I appreciate the indulgence of the ranking member here. 
There are no other members here, we are given multiple rounds, 
so with your continued indulgence, I will continue on for a few 
more questions.
    What I would love to know and have some sort of sense is is 
there any way to actually pursue these people. How many people 
are actually going out there and doing this? You know, in Utah, 
for instance, we have less ICE officers than we do counties, so 
the number of resources that we have that can actually be 
applied to this are so few and far between; and these ICE 
agents, they are obviously pursuing people that are at the 
highest of the food chain and working closely with the U.S. 
marshals and others if they are wanted for other crimes and 
whatnot. But this becomes terribly complicated, and this is the 
worry, that we essentially give out 8 million, 9 million of 
these cards and there is no exit. We have no idea if these 
people have left.
    And I just don't understand why this is so difficult. We 
talk about air and sea. Air works pretty well. I go through 
international travel, I did in the last two days, and it was 
amazing how quick we went through the system. But when you are 
talking about on the land, these ports of entry, it is very 
difficult.
    Mr. Wagner, I need to ask you about the process for minors. 
You will issue border crossing cards to minors, correct, Mr. 
Ramotowski?
    Mr. Ramotowski. Yes, that is correct.
    Mr. Chaffetz. Mr. Wagner, do you know, if you are a minor, 
can you cross the border unaccompanied, with no adult?
    Mr. Wagner. No.
    Mr. Chaffetz. I will let you get back to me. I can tell by 
your physical response that maybe you want to come back.
    Mr. Wagner. If you are in the custody of an adult, we can 
ask for do you have legal custody or guardianship of that 
child. I don't believe there is a prohibition against a minor 
crossing the border by themselves, but it may bear the question 
from us, depending on how old they are, what are you out here 
doing. But let me get back to you on it.
    Mr. Chaffetz. And this is my concern. I went down to Naco, 
Arizona. I watched it myself. I watched dozens of kids probably 
in the third, fourth, fifth grade, pretty young, crossing the 
borders all by themselves. And the agent there told me, oh, 
they do it everyday. I don't understand where a minor 
shouldn't--you know, they are not supposed to go watch an R 
rated movie, let alone cross an international border. And the 
liability that we have by having somebody who is eight years 
old or ten years old crossing an international border, and the 
liability that can happen. Would you please get back to this 
committee? I want to understand the process for minors, 
particularly as it is for unaccompanied minors.
    Also, the other thing that I worry about, we hear horrific 
cases, they are not great in number, at least I hope they are 
not great in number, where you have people who are going 
through divorce and other sometimes tumultuous type of 
activities, and kids are brought south, going south on the 
border; and we don't check. You have somebody standing there, 
have a little turnstile. There is no checking. I don't want to 
drone on here, but it seems to me an easy process. When I go 
buy a turkey sandwich at my Gandolfo's deli, you can tell how 
many times I got a turkey sandwich. Given the radio frequency 
embedment of these chips, the ability to scan a card, I don't 
see any reason in any delay further, given that it is law, the 
proper appropriations, that there can't be, southbound, a way 
for people to scan those cards and just keep on going, so that 
we have some idea. Right now we are operating in the dark, in 
the blind. We have no idea how many people actually abide, if 
they leave on time, and that is a shame for the people who are 
doing it legally and lawfully.
    Mr. Wagner?
    Mr. Wagner. Well, it would be a matter of replicating the 
inbound infrastructure and personnel requirements and resources 
to be able to replicate that in an outbound environment. So we 
can certainly put those figures together and look at what that 
would cost to deploy that type of infrastructure, but again, in 
a place like San Ysidro, with 20-plus lanes of inbound, there 
are only four to six lanes going outbound. It would be a matter 
of extending that footprint and building that infrastructure 
and having the resources to put in there to be able to do it 
and looking at what the congestion and the traffic would be by 
doing that and whether or not the land is even available. So it 
would be a tremendous process to undertake and a tremendous 
program to undertaken, at great cost to do it.
    Mr. Chaffetz. Well, given that the Congress had already 
passed this law more than 10 years ago, I do think that the 
American people have spoken that, yes, they want to have this 
happen. It is the current law; it should happen. It may take 
people a little bit longer to go, but I don't think it is going 
to take much longer. If you come in, scan your card, go to the 
next person, we are supposed to be reviewing these people, not 
just letting them flow with no review. I mean, I have seen you 
there with scanners on cars. You are reading license plates, 
correct?
    Mr. Wagner. Yes. And we can actually read documents going 
outbound, too, but it takes an officer being there to stop the 
person to do it and then make sure they are the cardholder, 
too.
    Mr. Chaffetz. So you do have the capability. You do do it 
with vehicles.
    Mr. Wagner. Absolutely. We have a lot of license plate 
readers out there. We have some fixed options, we have some 
mobile options that do it. We are just not doing it 100 percent 
of the time at 100 percent of the locations.
    Mr. Chaffetz. When I can return my National car, they come 
up, pop the number, print me out a receipt, walk around the 
car, next.
    Mr. Wagner. It is a resource issue at that point, but we 
are not even fully resourced to handle the inbound traffic that 
we have today, much less take on the additional responsibility 
of the outbound piece.
    Mr. Chaffetz. And I think we need that. We have a bigger 
obligation for this Country to make sure we get it right, 
rather than we get it fast, and that is my deep concern.
    Listen, I do have lots more questions, but I appreciate you 
taking your time here today.
    Unless the ranking member has an additional comment, I want 
to thank the men and women who do a hard, difficult job within 
your departments and agencies. I appreciate you for having the 
willingness and guts to come before Congress. Waking up to 
testify before Congress is not exactly necessarily your best 
day, and I understand how difficult a time. I appreciate the 
staff and the preparation that it takes for this.
    We do, on a bipartisan manner, ask that you respond to our 
letters in a thoughtful way. We can avoid a lot of these 
hearings if you just have some good dialogue. We are asking for 
stats and metrics so we, on both sides of the aisle, can 
respond and look at the same numbers and have the same 
discussion. Rather than some nebulous study done, we want to 
hear from you how this works, what happens. It is the only way 
we can assess it and try to improve it. We are going to debate 
and have differences on what is valid and how we should do 
things, but when we operate in the blind and you can't provide 
the basic metrics, it is terribly frustrating. And I don't 
understand the games that the legislative liaisons sometimes 
play. Some have been very good, very responsive, and we 
appreciate that and we should probably do a better job of 
highlighting it when it does work well. But I tell you, in this 
instance, trying to get some basic numbers has been terrible, 
it has been awful.
    With that, I want to again thank you for your time. 
Appreciate everything you do, and please do what you can to 
send word back how much we appreciate the men and women who are 
doing the hard work out in the field, on the border, chasing 
down the bad people. And we thank you so much for your time 
today.
    With that, we will adjourn this committee. Thank you.
    [Whereupon, at 11:06 a.m., the subcommittee was adjourned.]



                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
